HHS/OIG - Audit, "Medicaid Pharmacy - Actual Acquisition Cost of Generic Prescription Drug Products, (A-06-01-00053)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Pharmacy - Actual Acquisition Cost of Generic Prescription
Drug Products," (A-06-01-00053)
March 14, 2002
Complete
Text of Report is available in PDF format (1.01 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that significant savings could be realized on
generic prescription drugs reimbursed by States under the Medicaid program.
Most States use average wholesale price (AWP) minus a percentage discount as
a basis for reimbursing pharmacies for drug prescriptions. This discount averaged
about 10.31 percent nationally in 1999. We believe it is not a sufficient discount
to ensure that reasonable prices are paid for drugs. Our review of pricing information
from 217 pharmacies in 8 States estimated that pharmacy actual acquisition cost
nationwide for generic drugs averaged 65.93 percent below AWP. For the 200 generic
drugs with the greatest amount of Medicaid reimbursement in 1999 we calculated
that as much as $470 million could have been saved if reimbursement had been
based on a 65.93 percent average discount from AWP. Our review was limited to
ingredient acquisition costs and did not address other areas such as the cost
of dispensing the drugs. Generally, States pay retail pharmacies for their dispensing
action separately from the reimbursement for the prescription drug. We recommended
that the Centers for Medicare & Medicaid Services (CMS) require the States
to bring pharmacy reimbursement for generic drugs more in line with the actual
acquisition cost of such drugs. The CMS concurred and plans to share our final
report with the States, strongly encourage States to review their estimates
of acquisition costs, and follow-up to ensure that their actions take our findings
into account.